1a
APPENDIX A
United States Court of Appeals for the Fifth
Circuit
________________
No. 20-30033
________________

Filed
June 17, 2021

TONY B. JOBE, ESQUIRE,
Plaintiff—Appellee,
versus
NATIONAL TRANSPORTATION SAFETY BOARD,
Defendant—Appellant.
Appeal from the United States District Court
for the Eastern District of Louisiana
USDC No. 2:18-CV-10547
Before CLEMENT, HO, and DUNCAN, Circuit
Judges.
STUART KYLE DUNCAN, Circuit Judge:
Aircraft disasters are investigated by a federal
agency called the National Transportation Safety
Board (NTSB). The inquiry usually includes representatives from the aircraft’s manufacturer or operator, who are uniquely positioned to shed light on what

2a
went wrong. This case, involving the tragic crash of a
sightseeing helicopter in Hawaii, asks whether communications between the NTSB and such outside consultants must be disclosed to the public under the
Freedom of Information Act (FOIA).
Answering that question turns on the scope of
FOIA’s “Exemption 5,” which shields privileged “intra-agency” documents from disclosure. See 5 U.S.C.
§ 552(b)(5). Several circuits, including ours, read Exemption 5 to protect communications not only among
an agency’s employees, but also with some
non-agency experts whose input the agency has solicited. This is known as the “consultant corollary.” See
Hoover v. U.S. Dep’t of the Interior, 611 F.2d 1132,
1137-38 (5th Cir. 1980); Wu v. Nat’l Endowment for
Humans., 460 F.2d 1030, 1032 (5th Cir. 1972). The
district court ruled the corollary did not apply to documents the NTSB exchanged during its investigation
with representatives from the helicopter’s operator
and manufacturers. Relying on Department of the Interior v. Klamath Water Users Protection Association,
532 U.S. 1 (2001), the court reasoned the corollary
does not protect even privileged communications with
“self-interested” consultants like those.
The district court erred. Klamath does not stand
for the broad principle that a consultant’s “self-interest” always excludes it from Exemption 5. And,
properly applied, the consultant corollary squarely covers the NTSB’s communications with the non-agency
parties here. By necessity, the NTSB solicits technical
input from entities whose aircraft are under investigation. But the process only finds facts and issues

3a
safety recommendations; it does not assign liability or
have adverse parties, and its conclusions are not admissible in litigation. Moreover, the agency closely supervises non-agency parties and controls the release
of any non-public information. Subjecting the NTSB’s
communications with consultants to broad public disclosure would inhibit the agency’s ability to receive
candid technical input from those best positioned to
give it.
We therefore conclude that the outside parties solicited by the NTSB qualify as “consultants” under
Exemption 5’s corollary. That does not end the case,
however—deeming documents “intra-agency” is only
the first step in a two-part assessment. See Klamath,
532 U.S. at 9 (“[T]he first condition of Exemption 5 is
no less important than the second”). Exemption 5 does
not shield all intra-agency documents from disclosure, only those which are “normally privileged in the
civil discovery context.” N. L. R. B. v. Sears, Roebuck
& Co., 421 U.S. 132, 149 (1975). Cf. U.S. Dep’t of Just.
v. Julian, 486 U.S. 1, 14 (1988) (Exemption 5 does not
apply to documents that are “routinely available” in
discovery). On remand, the district court will need to
undertake the second facet of the Exemption 5 inquiry: determining whether the documents at issue
are subject to a litigation privilege ordinarily available to a government agency. See, e.g., U.S. Fish &
Wildlife Serv. v. Sierra Club, Inc., 141 S. Ct. 777, 783
(2021) (“Exemption 5 incorporates the privileges
available to Government agencies in civil litigation,
such as the deliberative process privilege, attorney-client privilege, and attorney work-product privilege.”).

4a
We reverse the district court’s judgment and remand for further proceedings consistent with this
opinion.
I.
A.
In 2011, a helicopter crashed while on a sightseeing tour in Hawaii, killing the pilot and all four passengers. The helicopter was operated by a U.S. company, Blue Hawaiian Helicopters. It was manufactured by a French company, Eurocopter, and its engine was manufactured by another French company,
Turbomeca.
Aircraft accidents are investigated by the NTSB,
which conducts “fact-finding proceedings” to determine probable cause and issue safety recommendations. See 49 C.F.R. § 831.4 (2016); 49 U.S.C.
§ 1131(a)(1)(A). 1 The agency does not assess “rights or
liabilities,” and its final report cannot be admitted in
a civil action. 49 C.F.R. §§ 831.4, 835.2; 49 U.S.C.
§ 1154(b). 2 Investigations are supervised by an “Investigator in Charge” (“IIC”), 49 C.F.R. § 831.8, who
may designate “parties” to the investigation. Id.
§ 831.11(a)(1). A party is an entity “whose employees,
All citations, unless otherwise noted, are to the 2016 edition of the Code of Federal Regulations, which was the version
in effect at the time of the accident, investigation, and Plaintiff’s
FOIA requests.
1

2 As discussed infra, the evidentiary bar does not apply to
factual reports made at earlier stages of the investigation or the
purely factual material reproduced in the final report.

5a
functions, activities, or products were involved in the
accident or incident and who can provide suitable
qualified technical personnel actively to assist in the
investigation.” Ibid. Parties are under the NTSB’s direct supervision. Id. §§ 831.8(b); 831.11(a)(2).
Non-agency parties must sign a “Statement of Party
Representatives to NTSB Investigation,” id.
§ 831.11(b), which commits them not “to prepare for
litigation or pursue other self-interests.” Parties may
not be represented “by any person who also represents claimants or insurers,” or “occup[ies] a legal position,” id. § 831.11(a)(3), nor may they release information obtained during an investigation, subject to
specific exceptions, id. § 831.13(b).
As part of the helicopter crash investigation, the
IIC appointed party representatives from Blue Hawaiian and the Federal Aviation Administration. Under an international convention, a French agency (the
“Bureau of Enquiry and Analysis for Civil Aviation
Safety,” or “BEA”) served as an accredited representative. See CONVENTION ON INT’L CIVIL AVIATION, Dec. 7, 1944, 61 Stat. 1180, 15 U.N.T.S. 295. 3
3 Signatories to this convention, commonly called the “Chicago Convention,” see Wardair Canada, Inc. v. Fla. Dep’t of Revenue, 477 U.S. 1, 9 (1986), established the International Civil
Aviation Organization (“ICAO”), which adopts uniform standards for international accident investigations. Convention, art.
37(k), 61 Stat. 1180; see also Earl v. Boeing Co., --- F.Supp.3d ---,
2021 WL 274435, at *3 (E.D. Tex. Jan. 27, 2021) (recounting history of the Chicago Convention). Annex 13 provides that accredited representatives from the countries in which the aircraft was
operated, designed, and manufactured can participate in the investigation and designate technical advisors to assist. ICAO

6a
The BEA assigned technical advisors from Eurocopter
and Turbomeca to assist. The advisors were allowed
to inspect the crash site, take notes, discuss accident
scenarios with other team members, and perform
other investigative activities. Although supervised by
the BEA, the advisors were subject to the IIC’s control. ICAO Annex 13, § 5.25.
B.
In 2014, after the NTSB finished its investigation,
Tony Jobe submitted an information request under 49
C.F.R. § 837.1-4. 4 Jobe is a lawyer who represents the
families of the crash victims. Although the NTSB denied Jobe’s request because it lacked the required affidavit, see id. § 837.4(b)(2), the agency converted it
into a FOIA request. The NTSB then searched 13,000
pages for any records related to the crash and disclosed about 4,000 pages to Jobe. Of the 9,000 undisclosed pages, 2,349 were withheld under Exemption
Annex 13, §§ 5.18-5.20, 5.24. The advisors are supervised by the
accredited representatives, § 5.24.1, and any participation is
subject to the IIC’s control, § 5.25. We note that at least one court
has questioned whether annexes to the Chicago Convention have
binding legal effect or should even be considered by federal
courts. See Earl, --- F.Supp.3d ---, 2021 WL 274435, at *4-6. Because neither party here questions the legal import of the annexes and our conclusion does not depend on their validity, we
need not weigh in on that debate.
4 Section 837 provides a process, separate from FOIA, by
which parties in litigation not involving the NTSB may request
“material”—defined to include “any type of physical or documentary evidence”—that is “contained in NTSB files” or has been
“acquired by . . . the NTSB in the performance of [its] official
duties.” See 49 C.F.R. §§ 837.1, 837.2.

7a
5, which exempts “inter-agency or intra-agency memorandums or letters that would not be available by
law to a party other than an agency in litigation with
the agency.” 5 U.S.C. § 552(b)(5).
In 2016, Jobe submitted a second FOIA request
for eleven specific categories of documents relating to
the on-scene phase of the investigation. The NTSB determined it had already disclosed all releasable documents but nonetheless offered to re-review the 2,349
withheld pages. The agency ultimately released another 159 to Jobe.
Seeking additional disclosures, Jobe filed suit in
the Eastern District of Louisiana. See 5 U.S.C.
§ 552(a)(4)(B). In response, the NTSB produced a
Vaughn index 5 describing 215 withheld documents
responsive to the eleven categories in Jobe’s second
FOIA request. Both parties moved for summary judgment.
The district court rejected Jobe’s claims that the
Vaughn index was incomplete and that the NTSB
failed to segregate releasable from nonreleasable material. The court also determined that the NTSB
properly invoked Exemption 5 as to several internal
documents. (Jobe does not challenge those rulings on
appeal.) The court, however, ruled that documents
5 A Vaughn index describes documents identified as responsive to a FOIA request but not produced and explains why they
have been withheld. See Cooper Cameron Corp. v. U.S. Dep’t of
Labor, Occupational Safety & Health Admin., 280 F.3d 539, 544
n.12 (5th Cir. 2002); see also Vaughn v. Rosen, 484 F.2d 820,
827-28 (D.C. Cir. 1973).

8a
sent among the NTSB, Blue Hawaiian, Eurocopter,
and Turbomeca were not “intra-agency” and so did not
qualify for withholding under Exemption 5. Specifically, the court declined to apply the “consultant corollary,” which deems “intra-agency” certain communications with or materials produced by outside experts
who aid in agency decision-making. See Hoover, 611
F.2d at 1137-38; Wu, 460 F.2d at 1032. The court thus
granted Jobe partial summary judgment and ordered
the NTSB to produce about 125 pages. The order was
stayed pending the agency’s appeal.
II.
We review a summary judgment de novo. Digital
Drilling Data Sys., L.L.C. v. Petrolink Servs., Inc., 965
F.3d 365, 373 (5th Cir. 2020). FOIA exemptions are
“exclusive” and “narrowly construed.” Dep’t of the Air
Force v. Rose, 425 U.S. 352, 361 (1976) (citations omitted); see also Sharyland Water Supply Corp. v. Block,
755 F.2d 397, 398 (5th Cir. 1985) (Because “FOIA is
designed to promote the disclosure of information ...
[,] exemptions from it are not to be read broadly.”) (citations omitted). Disclosure is strongly favored. U.S.
Dep’t of State v. Ray, 502 U.S. 164, 173 (1991). Nonetheless, “FOIA expressly recognizes that important
interests are served by its exemptions, and those exemptions are as much a part of FOIA’s purposes and
policies as the statute’s disclosure requirement.” Food
Marketing Inst. v. Argus Leader Media, 139 S. Ct.
2356, 2366 (2019) (cleaned up); see also FBI v. Abramson, 456 U.S. 615, 630-31 (1982) (“While Congress established that the basic policy of [FOIA] is in favor of
disclosure, it recognized the important interests

9a
served by the exemptions.”). The government bears
the burden to prove that documents fall within an exemption. U.S. Dep’t of Just. v. Tax Analysts, 492 U.S.
136, 141 n.3 (1989); Batton v. Evers, 598 F.3d 169, 175
(5th Cir. 2010); see also 5 U.S.C. § 552(a)(4)(B) (“[T]he
burden is on the agency to sustain its action.”).
III.
The district court concluded that neither the helicopter’s French manufacturers (Eurocopter and Turbomeca), nor the American company leasing the helicopter at the time of the crash (Blue Hawaiian), qualified as “consultants” under the corollary because
they were “self-interested.” While recognizing those
companies’ employees were “there to help NTSB’s investigation,” the court reasoned “they were also undoubtedly there to collect information to prepare for
inevitable future litigation.” Their participation, the
court noted, also conferred a “significant benefit” on
the companies: unlike the families of the crash victims, the companies had access to the “investigation
file” and “editorial license” over the agency’s factual
reports and ultimate probable cause determination.
The court relied on language from the Supreme
Court’s opinion in Klamath—namely its observation
that a consultant typically “does not represent an interest of its own, or the interest of any other client,
when it advises the agency that hires it.” 532 U.S. at
11.
On appeal, the NTSB asserts the district court
erred in refusing to apply the corollary to communications among non-agency parties to an NTSB

10a
investigation. The agency argues that its investigations are non-adversarial fact-finding proceedings
and that non-agency participants are overseen by the
NTSB and prohibited from disclosing non-public information absent agency approval. The agency further argues that the district court read Klamath too
broadly and that the “parties” here are not “self-interested” within the meaning of that decision.
Whether the consultant corollary applies to
non-agency participants in NTSB investigations is an
issue of first impression in the federal circuit courts.
Though a close question, we conclude that Blue Hawaiian, Eurocopter, and Turbomeca qualify as consultants. We therefore reverse the district court’s
judgment and remand for the court to determine
whether the withheld documents are subject to any
litigation privilege.
A.
FOIA requires federal agencies to disclose documents within their control upon request, unless the
documents fall within one of nine enumerated exceptions. See 5 U.S.C. § 552(b)(1)-(9). Exemption 5 protects from disclosure “inter-agency or intra-agency
memorandums or letters that would not be available
by law to a party other than an agency in litigation
with an agency.” Id. § 552(b)(5). The exemption thus
embodies “two conditions: [a document’s] source must
be a Government agency, and it must fall within the
ambit of a privilege against discovery under judicial

11a
standards that would govern litigation against the
agency that holds it.” Klamath, 532 U.S. at 8. 6
This case involves the first condition and, specifically, the scope of the statutory term “intra-agency.”
Every circuit to address this issue, including ours, has
concluded that intra-agency communications are not
limited to those between or among an agency’s employees. See Hoover, 611 F.2d at 1138 (concluding that
an appraisal report, although prepared by an outside
expert, was “an intra-agency memorandum within
the meaning of Exemption 5” (citing Wu, 460 F.2d at
1032)). 7 Rather, “intra-agency” also embraces “records of communications between an agency and outside consultants ... if they have been created for the
purpose of aiding the agency’s deliberative process.”
Pub. Citizen, Inc. v. Dep’t of Just., 111 F.3d 168, 170
(D.C. Cir. 1997) (cleaned up); see also Ryan v. Dep’t of
Just., 617 F.2d 781, 789 (D.C. Cir. 1980) (Exemption
5 “was created to protect the deliberative process of
the government, by ensuring that persons in an advisory role would be able to express their opinions freely
See also Sierra Club, 141 S. Ct. at 783 (listing various litigation privileges incorporated by Exemption 5); Sears, 421 U.S.
at 148 (“Exemption 5 withholds from a member of the public documents which a private party could not discover in litigation
with the agency.”).
6

7 See also McKinley v. Bd. of Govs. of the Fed. Rsrv. Sys., 647
F.3d 331, 336-39 (D.C. Cir. 2011); Hunton & Williams v. U.S.
Dep’t of Just., 590 F.3d 272, 279-80 (4th Cir. 2010); Stewart v.
U.S. Dep’t of the Interior, 554 F.3d 1236, 1244-45 (10th Cir.
2009); Tigue v. U.S. Dep’t of Just., 312 F.3d 70, 77-78 (2d Cir.
2002); Gov’t Land Bank v. Gen. Servs. Admin., 671 F.2d 663, 666
(1st Cir. 1982).

12a
to agency decision-makers without fear of publicity.”). 8 While the Supreme Court has neither embraced nor rejected this consultant corollary, three
Justices (Scalia, joined by White and O’Connor) once
called it a “permissible and desirable reading of the
statute” because it is
much more in accord with the purpose of the
provision, to regard as an intra-agency memorandum one that has been received by an
agency, to assist it in the performance of its
own functions, from a person acting in a
8 No circuit has rejected the consultant corollary. But see
Lucaj v. Fed. Bureau of Investigation, 852 F.3d 541, 548 (6th Cir.
2017) (casting doubt, in dicta, on the “textual justification” for
the corollary in case addressing a related Exemption 5 doctrine).
The en banc Ninth Circuit recently overturned a panel opinion
that had found no textual basis for the corollary. See Rojas v.
FAA, 989 F.3d 666 (9th Cir. 2021) (en banc) (overruling Rojas v.
FAA, 927 F.3d 1046 (9th Cir. 2019)). Various opinions debated
the corollary’s textual bona fides. Compare Rojas, 989 F.3d at
673 (concluding “‘intra-agency’ in Exemption 5 does not definitively resolve the interpretive question” and therefore considering “the purposes served by Exemption 5”), and id. at 678-83
(Collins, J., concurring) (defending this reading of “intra-agency”), with id. at 685 (Wardlaw, J., concurring in part and
dissenting in part) (“Exemption 5’s text is crystal clear: documents or communications exchange with outside consultants do
not fall within that exemption.”), id. at 690-91 (Thomas, C.J.,
concurring in part and dissenting in part) (agreeing with Judge
Wardlaw that Exemption 5 does not encompass a “consultant
corollary”), and id. at 693 (Bumatay, J., concurring in part and
dissenting in part) (arguing Exemption 5’s “plain text” “leave[s]
no room for documents created by those outside of an agency’s
employment”). Because our circuit precedent accepts the corollary, see Wu, 460 F.3d at 1032, we need not enter into this debate.

13a
governmentally conferred capacity other than
on behalf of another agency—e.g., in a capacity as employee or consultant to the agency, or
as employee or officer of another governmental unit (not an agency) that is authorized or
required to provide advice to the agency.
Julian, 486 U.S. at 1, 18 n.1 (Scalia, J., dissenting). 9 This explanation tracks our circuit’s rationale
for adopting the corollary. See Wu, 460 F.2d at 1032
(“The Government may have a special need for the
opinions and recommendations of temporary consultants, and those individuals should be able to give
their judgments freely without fear of publicity.”
(quoting Soucie v. David, 448 F.2d 1067, 1078 n.44
(D.C. Cir. 1971))).
B.
In finding the consultant corollary inapplicable
because of the companies’ “self-interest,” the district
court relied principally on Klamath. The court read
that decision too broadly, however.
Klamath involved documents exchanged between
the Department of the Interior and Indian tribes
9 The Julian majority did not address this issue “because it
concluded that the documents [at issue] would be routinely discoverable in civil litigation and therefore would not be covered
by Exemption 5 in any event.” Klamath, 532 U.S. at 10 n.2 (citing
Julian, 486 U.S. at 11-14); see also Julian, 486 U.S. at 18 n.1
(Scalia, J., dissenting) (explaining that the “Court does not reach
the issue” of whether the communications in question qualified
as “‘intra-agency memorandums’ within the meaning of Exemption 5”).

14a
regarding water allocation from Oregon’s Klamath
River Basin. 532 U.S. at 5. The Department was consulting with the tribes during a planning project and
also representing one tribe in related litigation. Ibid.
When competing water-users FOIA’d 10 these documents, the Department withheld them under Exemption 5. Id. at 6. The Supreme Court held the exemption inapplicable, however. Id. at 14-16. While noting
some circuits had extended the exemption to “outside
consultants,” id. at 10, the Court observed that “in the
typical cases ... the consultant does not represent an
interest of its own, or the interest of any other client,
when it advises the agency that hires it.” Id. at 11.
The tribes, by contrast, “necessarily communicate[d]
with the [Department] with their own, albeit entirely
legitimate, interests in mind.” Id. at 12. Moreover, the
tribes were “self-advocates at the expense of others
seeking benefits”—a share of the water—“inadequate
to satisfy everyone.” Ibid. The Court found this latter
point “dispositive”: the tribes sought “a decision by
[the Department] to support a claim … necessarily adverse to the interests of competitors.” Id. at 14; see
also, e.g., McKinley v. Bd. of Govs. of the Fed. Rsrv.
Sys., 647 F.3d 331, 337 (D.C. Cir. 2011) (identifying
10 “To have ‘FOIA’d’ information is to have submitted a request for the information under the [Freedom of Information]
Act.” Spenser Hsu, Uncovering Forensic Flaws: An Outside Perspective, 34 GA. ST. U.L. Rev. 1221, 1224 n.2 (2018); see also
Brian G. Brooks, Adventures in Cyber-Space: Computer Technology and the Arkansas Freedom of Information Act, 17 U. ARK.
LITTLE ROCK L.J. 417, 418 n.7 (1995) (noting FOIA “can also
be a verb referring to the act of requesting access” and so “one
may ‘FOIA’ the County Clerk, who will then state that he has
been ‘FOIA’d.’”).

15a
the tribes’ “necessarily adverse” position as the “dispositive point” of Klamath). Thus, the tribes were not
“enough like the agency’s own personnel to justify
calling their communications ‘intra-agency’” under
Exemption 5. Klamath, 532 U.S. at 12.
Klamath is distinguishable from the present case
on multiple grounds. Principally, Blue Hawaiian, Eurocopter, and Turbomeca are not making “claims”
that are “necessarily adverse” to those of the crash
victims’ families. Id. at 14; see also id. at 12 n.4 (“[T]he
intra-agency condition excludes, at the least, communications to or from an interested party seeking a Government benefit at the expense of other applicants.”)
(emphasis added). Rather, their employees are participating in an investigation that is a “fact-finding proceeding[] with no adverse parties,” one that is “not
conducted for the purpose of determining the rights
and liabilities of any person.” 49 C.F.R. § 831.4. Indeed, “[n]o part of a report of the [NTSB], related to
an accident or an investigation of an accident, may be
admitted into evidence or used in a civil action for
damages resulting from a matter mentioned in the report.” 49 U.S.C. § 1154(b); see also Curry v. Chevron,
USA, 779 F.2d 272, 274 (5th Cir. 1985) (expert’s probable-cause testimony could not rely on NTSB report
because “Congress has determined that these reports
shall not be used as evidence at trial”). 11 The
11 The NTSB has clarified that it “does not object to, and
there is no statutory bar to, admission in litigation of factual accident reports,” which the agency defines as “the report containing the results of the investigator’s investigation of the accident.”
49 C.F.R. § 835.2 (emphasis added); cf. ibid. (defining “board

16a
companies’ role in the agency investigation thus
stands in sharp contrast with Klamath, where the
tribes were lobbying the agency during a planning
project to obtain their desired share of a river basin’s
resources, in zero-sum competition with other water-users.
Furthermore, all parties to NTSB investigations—including companies like Eurocopter and Turbomeca appointed pursuant to an international convention—are under the control of the agency-appointed IIC. See 49 C.F.R. §§ 831.8; 831.11(a)(2); see
also ICAO Annex 13, § 5.25. For instance, the IIC supervises a party’s ability to disclose information obtained during an investigation, including within the

accident report” as the report “containing the [NTSB’s] determinations, including the probable cause of an accident,” which is
expressly prohibited from being admitted as evidence). As the
agency stressed at oral argument, “the final fact report that
NTSB puts out, with all of its supporting documentation, photographs, data … becomes one hundred percent public and is admissible in court.” Tr. of Oral Arg. at 39:10-39:40; see also Curry,
779 F.2d at 274 (distinguishing admissibility of “factual portions
of the report” from “conclusory statements in the … reports”).
This distinction (between factual material and the Board’s conclusions and recommendations) might affect the second part of
the Exemption 5 assessment—whether a document falls within
any “privileges available to Government agencies in civil litigation.” Sierra Club, 141 S. Ct. at 783; see also Klamath, 532 U.S.
at 8. Because we reverse only the district court’s conclusion regarding the first part of the Exemption 5 analysis, however, we
do not resolve this question. The district court is free to consider
the pertinence of this distinction, if any, on remand.

17a
party’s own organization. See 49 C.F.R. § 831.13(b). 12
And a party must sign a “Statement of Party Representatives,” emphasizing its role is only “to facilitate
the NTSB’s investigation and ultimate goal of advancing transportation safety, [and] not … to prepare for
litigation or pursue other self-interests.” Id.
§ 831.11(b). 13 The IIC may suspend or revoke party
status if a party fails to follow instructions or acts “in
a manner prejudicial or disruptive to the investigation.” Id. § 831.11(a)(2). Contrast this degree of
agency control over non-agency parties with the situation in Klamath, where nothing suggested that the
Department supervised the tribes, circumscribed
their role in the planning process, or limited their
ability to use information they obtained to further
their own claims. 14

12 The only exception in the 2016 regulation was for information “necessary for purposes of preventive or remedial action.”
Id. § 831.13(b).

Reinforcing this point, the regulations specify that “party
status” is reserved for organizations “who can provide suitable
qualified technical personnel actively to assist in the investigation.” Id. § 831.11(a)(1). A subsequent amendment to this section
has clarified that while the organization’s employees or products
will necessarily have been “involved in the accident,” “[t]o the
extent practicable,” the organization’s representative “may not
be a person who had direct involvement in the accident under
investigation.” 49 C.F.R. § 831.11(a)(1) (2017).
13

14 Cf. Klamath, 532 U.S. at 5-6 (explaining that the Indian
tribes had their “own lawyers” who “independently submitted
claims on [their] own behalf” in the pending water rights litigation, supplementing claims submitted by the United States); see
also id. at 13-14 (describing the “function” of the documents in

18a
The district court also placed particular weight on
the fact NTSB investigations do not usually (and did
not in this case) include representatives of victims’
families. The court’s concern reflects commendable
sympathy for these families, but it is ultimately misplaced. The NTSB does not invite victims’ representatives to participate in investigations because they
are typically not experts who can “provide suitable
qualified technical personnel to actively assist.” 49
C.F.R. § 831.11(a)(1); see also 82 Fed. Reg. 29,670,
29,681 (June 29, 2017) (explaining, in response to
comments advocating inclusion of family representatives, that “we disagree … that representatives from
family-member organizations … should be considered
technical experts as that term is understood in our investigations”). 15 The agency’s focus on technical expertise is logical given its mandate: it conducts
non-adversarial, forward-looking investigations intended to “ascertain measures that would best tend to
question as “quite apparently to support the tribal claims” and
further noting that the tribes were “pressing [their] own view of
[their] own interest in [their] communications”).
15 That is not to say the NTSB ignores “the needs of victims
and their families for information following an accident.” 82 Fed.
Reg. at 29,681. To the contrary, “[t]he agency has a division
whose responsibility is to ensure victims and family members
are aware of factual developments in investigations, the overall
status of the investigation, and other relevant information.”
Ibid; see National Transportation Safety Board, Information for
Families, Friends and Survivors, https://www.ntsb.gov/tda/family/Pages/default.aspx (last visited June 16, 2021) (explaining
“[t]he NTSB Transportation Disaster Assistance Division … provides information and assistance for family members and friends
of accident victims and survivors in the immediate aftermath of
an accident and in the months and years following”).

19a
prevent similar accidents or incidents in the future.”
49 C.F.R. § 831.4. In other words, the NTSB’s responsibility is to probe the technical causes of aircraft accidents in order to advise regulators and lawmakers;
it is not an adjudicatory entity designed to mete out
justice. The exclusion of victims’ family members from
investigations, then, has no bearing on whether outside entities with whom the agency does communicate
are “akin to … agency employee[s],” Stewart, 554 F.3d
at 1245, and thus fall within the consultant corollary.
We therefore respectfully disagree with the district court that, under Klamath, Blue Hawaiian, Eurocopter, and Turbomeca’s “self-interest” disqualifies
them as consultants for purposes of Exemption 5. To
be sure, Klamath contains language suggesting that
self-interest of some kind may prevent outside experts
from being deemed consultants. See, e.g., Klamath,
532 U.S. at 10-11 (while an outside consultant need
not “be devoid of a definite point of view,” it “typical[ly] ... does not represent an interest of its own, or
the interest of any other client, when it advises the
agency that hires it”). Whatever that threshold might
be, however, it has not been reached here. This case,
in contrast to Klamath, involves technical personnel
who participated in an agency fact-finding investigation—a process that was designed solely to issue
safety recommendations, that does not adjudicate liability, and that was controlled by the agency itself.
Moreover, the non-agency participants here are the
kind of experts typically accorded consultant status
under Exemption 5: “outside consultants” positioned
by their technical knowledge to inform an “agency’s

20a
deliberative process.” Pub. Citizen, 111 F.3d at 170. 16
Thus, given the overall context of the agency process,
the companies were “enough like the [NTSB’s] own
personnel to justify calling their communications ‘intra-agency’” under Exemption 5. Klamath, 532 U.S. at
12. As a result, they “should be able to give their judgments freely [to the agency] without fear of publicity.”
Wu, 460 F.2d at 1032 (citation omitted).
Of course, determining whether documents are
intra-agency is only the first step in applying Exemption 5. A document must also “fall within the ambit of
a privilege against discovery under judicial standards
that would govern litigation against the agency that
holds it.” Klamath, 532 U.S. at 8. Exemption 5 incorporates the various privileges which commonly shield
government documents (most commonly, but not always, predecisional and/or deliberative in character)
from disclosure during litigation. See Fish & Wildlife
Serv, 141 S. Ct. at 783; see, e.g., Jud. Watch, Inc. v.
Food & Drug Admin., 449 F.3d 141, 151 (D.C. Cir.
2006) (examining invocation of the deliberative process privilege in an Exemption 5 case and explaining
that the privilege “protects agency documents that
are both predecisional and deliberative”). Predecisional documents include those “‘generated before the
16 See also, e.g., Nat’l Inst. of Mil. Just. v. U.S. Dep’t of Def.,
512 F.3d 677, 679 (D.C. Cir. 2008) (consultant corollary shielded
recommendations of “non-government lawyers” including “former high ranking government officials” and “academics” about
the structure of a proposed military commission); Hoover, 611
F.2d at 1135, 1138 (corollary applied to appraisal by a “nongovernment appraiser with expertise in cave properties” obtained
by federal agency considering acquisition of such a property).

21a
adoption of an agency policy.’” Jud. Watch, 449 F.3d
at 151 (quoting Coastal States Gas Corp. v. Dep’t of
Energy, 617 F.2d 854, 866 (D.C. Cir. 1980)). Deliberative ones “‘reflect[] the give-and-take of the consultative process.’” Ibid.
The district court suggested some of the documents at issue here would “normally ... be exempt
from disclosure.” Others it did not address. Because
both facets must be satisfied for the exemption to apply, the district court should address this issue on remand. Of course, as the Supreme Court very recently
reiterated, the scope of Exemption 5 is not confined to
the boundaries of the deliberative process privilege.
Fish & Wildlife Serv, 141 S. Ct. at 783. The district
court is free on remand to consider any potentially
pertinent privilege and to assess the applicability of
any such privilege under the relevant test or standard
that normally governs its invocation. See, e.g., Kent
Corp. v. N.L.R.B., 530 F.2d 612, 618, 622-24 (5th Cir.
1976) (applying prevailing standard for attorney work
product privilege and finding documents shielded
from disclosure by Exemption 5).
IV.
In sum, the district court erred in concluding the
documents at issue were not “intra-agency” under Exemption 5. We therefore REVERSE the court’s judgment and REMAND for further proceedings consistent with this opinion.
REVERSED and REMANDED.

22a
JAMES C. HO, Circuit Judge, dissenting:
This appeal concerns the proper interpretation of
the Freedom of Information Act (“FOIA”)—specifically, the scope of Exemption 5, which exempts certain “inter-agency or intra-agency” communications
from public disclosure. 5 U.S.C. § 552(b)(5).
If the terms “inter-agency” and “intra-agency” exclude anything, I would think they exclude government communications with employees of the very entity the government is trying to regulate.
No court has ever applied Exemption 5 to such
communications. I have found no such case. Nor has
the majority or the NTSB.
And for good reason. A communication between
the regulator and the regulated—between parties
with conflicting public versus private interests— is
the very opposite of an internal government communication. That makes it hard to square this case with
the plain text of Exemption 5. I have trouble seeing
how an exchange between a government agency and
the employee of a company with an interest in the outcome of that agency’s actions can possibly constitute
an “inter-agency or intra-agency” communication.
Indeed, the Supreme Court found precisely the
opposite in Dep’t of Interior v. Klamath Water Users
Protective Ass’n, 532 U.S. 1 (2001). There the Court
assumed, without deciding, that Exemption 5 would
apply to a bona fide government consultant—but
pointedly noted that a “consultant does not represent
an interest of its own.” Id. at 11. “Its only obligations

23a
are to truth and its sense of what good judgment calls
for, and in those respects the consultant functions just
as an employee would be expected to do.” Id.
Communications involving an interested party,
by contrast, would not be subject to Exemption 5, according to Klamath. As the Court observed, “this fact
alone”—that is, the fact that the purported consultant
has its “own, albeit entirely legitimate, interests in
mind”—“distinguishes [such] communications from
the consultants’ examples recognized by several
Courts of Appeals.” Id. at 12 (emphasis added). 1
That same logic readily applies here. Eurocopter
and Turbomeca are private companies with a clear interest in the NTSB conducting its investigation in a
manner favorable to their private corporate interests.
They have an interest, for example, in steering the
NTSB away from making any statements or reaching
any conclusions that might support litigants who are
either currently adverse to the companies, or may

1 In a footnote, the Court acknowledged the existence of two
circuit rulings that “arguably extend beyond what we have characterized as the typical examples.” Id. at 12n.4 (citing Pub. Citizen, Inc. v. Dep’t of Justice, 111 F.3d 168 (D.C. Cir. 1997), and
Ryan v. Dep’t of Justice, 617 F.2d 781 (D.C. Cir. 1980). But as
the Court observed, those cases involved communications with
former Presidents and sitting U.S. Senators, respectively. Whatever one may think about characterizing correspondence with
former executive branch officials, or with officials in a different
branch of government, as “inter-agency” communications, I have
no difficulty concluding that those cases present categorically
different concerns from the private regulated parties in this case.

24a
someday be in the future—such as the families of the
crash victims represented by Jobe, the requestor here.
Tellingly, in the case cited by the NTSB as the
most supportive of its position, the court concluded
that the private party there had no interest separate
and apart from the agency, and was therefore subject
to Exemption 5. See McKinley v. Bd. of Governors of
Fed. Reserve, 647 F.3d 331, 337 (D.C. Cir. 2011) (quoting Klamath, 532 U.S. at 11) (“[T]he [Federal Reserve
Bank of New York] ‘[did] not represent an interest of
its own, or the interest of any other client, when it advise[d] the [Board]’ on the Bear Stearns loan.”). Not
surprisingly, the majority does not rely on McKinley.
The NTSB also points out, and the majority
agrees, that it is not technically a regulator—it
merely investigates and reports its findings to other
agencies. But as the NTSB itself acknowledges, the
whole purpose of its work is to help regulators like the
FAA determine how best to regulate companies to ensure public safety. No one disputes that the NTSB’s
findings can have a meaningful impact on the companies, and that the companies therefore have a genuine
interest in the content of the agency’s findings.
Finally, I do not question the sincerity of the
NTSB when it says it designates certain employees of
regulated companies to serve the public interest, in a
kind of secondment to the agency—and not to further
the private interest of their employers. I acknowledge
the various steps the agency takes to insulate itself
from being captured by industry interests as a result
of its investigatory methods. I agree with the majority

25a
that these party representatives may be bound by all
manner of regulatory strictures.
But that just proves my point: Those regulations
and restrictions are necessary precisely because these
employees remain on the payroll of the regulated companies and expect to return to their employers when
their secondments are completed. So they obviously
have an interest in the agency’s work. It would be
pure fiction for a government agency like the NTSB to
expect these designated private employees to ignore
their sense of loyalty and duty to their employers. To
the contrary, that’s why the agency needs regulations
to try to mitigate the impact of the employees’ contrary interests. But of course, those regulations don’t
actually eliminate those interests. Because they
can’t—nothing can change the fact that the employees
work for interested companies. And nothing in FOIA
directs courts to pretend otherwise.
What’s more, as the NTSB acknowledges, company experts are seconded to the agency, not to work
on safety issues generally, but to work on safety incidents specifically involving their companies. Indeed,
that’s precisely why the NTSB wants their expertise—they are chosen for the very reason that they
work for companies involved in the safety incidents
the agency is investigating.
To be sure, the NTSB may well have a strong argument that designated experts employed by interested companies like Eurocopter and Turbomeca
should be exempt from FOIA. The agency may be
right that such an exemption would help maximize

26a
the quantity and quality of the information available
to the agency about a safety incident like the tragic
helicopter crash at issue in this appeal.
But that is a policy decision for Congress to make,
not this court. Under the plain text of Exemption 5, I
see no basis for extending the consultant corollary to
the interested regulated entities who participate in an
NTSB investigation. Nor am I aware of any judicial
decision that would warrant such an extension here.
***
Open government is a founding principle of our
country. As James Madison, the father of our Constitution, once wrote, “a people who mean to be their own
Governors, must arm themselves with the power
which knowledge gives.” Letter from James Madison
to W.T. Barry (Aug. 4, 1822), in THE JAMES MADISON PAPERS AT THE LIBRARY OF CONGRESS,
1723-1859: Series 1, General Correspondence. 2
It was this spirit that gave rise to the adoption of
FOIA on July 4, 1966. See Pub. L. No. 89-487, 80 Stat.
250 (1966). FOIA offers every American one simple
promise: the right to know what your government is
doing. “[A]s Justice Brandeis said, sunlight is the best
disinfectant.” 162 CONG. REC. S1495 (daily ed. Mar.
15, 2016) (statement of Sen. Cornyn during debate
over 2016 amendments to FOIA).

2 This letter has been made available online by the Library
of Congress. See http://hdl.loc.gov/loc.mss/mjm.20_0155_0159.

27a
Accordingly, the Supreme Court has repeatedly
held that exemptions under FOIA are exclusive and
must be narrowly construed. See, e.g., Dep’t of the Air
Force v. Rose, 425 U.S. 352, 361 (1976); Vaughn v.
Rosen, 484 F.2d 820, 823 (D.C. Cir. 1973). “Consistent
with the Act’s goal of broad disclosure, these exemptions have been consistently given a narrow compass.”
U.S. Dep’t of Justice v. Tax Analysts, 492 U.S. 136,
151 (1989). See also FBI v. Abramson, 456 U.S. 615,
630 (1982) (“FOIA exemptions are to be narrowly construed.”).
Applying this established principle of interpretation to the plain meaning of “intra-agency” communications, I would hold that government communications with the employees of regulated parties fall
squarely outside of Exemption 5, and therefore subject to the disclosure mandates of FOIA. I agree with
the district court that Exemption 5 does not apply to
the documents at issue in this appeal and would
therefore affirm. The majority disagrees. Accordingly,
I very respectfully dissent.

28a
APPENDIX B
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
TONY B. JOBE

CIVIL ACTION

VERSUS

NO. 18-10547

NATIONAL
TRANSPORTATION
SAFETY BOARD

SECTION “A” (3)

ORDER AND REASONS
Before the Court is a Motion for Summary
Judgment (Rec. Doc. 28) filed by the Defendant
National Transportation Safety Board (“NTSB”) and
a Cross Motion for Summary Judgment (Rec.
Doc. 48) filed by the Plaintiff Tony Jobe. These two
motions, set for submission on October 16, 2019, are
before the Court on the briefs without oral argument.
I.

BACKGROUND

Jobe’s complaint seeks relief under the Freedom
of Information Act, 5 U.S.C. § 552 (“the FOIA”) and
the Administrative Procedure Act 5 U.S.C. § 706(1)
(“the APA”) and asks this Court to order the NTSB to
disclose the records it withheld that relate to the factfinding phase of its investigation of an EC130 B4 helicopter’s (“the Helicopter”) crash on the Island of Molokai, Hawaii, on November 10, 2011. (Rec. Doc. 48-1,
p. 6, Jobe’s Memorandum in Support). The crash

29a
killed the pilot, Nathan Cline, and his four passengers. Id. Plaintiff Jobe is an attorney who represents
at least one of the families of the victims to the helicopter crash. Id.
The Helicopter was manufactured by Airbus Helicopters, SAS, a French manufacturing company. Id.
Airbus Helicopters then sold the Helicopter to Nevada
Helicopter Leasing, LLC, who subsequently leased it
to Helicopter Consultants of Maui, d/b/a Blue Hawaiian Helicopters (“Blue Hawaiian”). Id. Blue Hawaiian
is a company that conducts aerial tours of the Hawaiian Islands, including Molokai. Id. 6-7.
During its investigation, the NTSB authorized
representatives from Airbus, Blue Hawaiian, and
Turbomecca (the French engine manufacturer) to participate as “parties” to its investigation. Id. at 7. As
parties to the investigation, the NTSB allowed Airbus, Blue Hawaiian, and Turbomecca to inspect the
crash site, take field notes, discuss possible accident
scenarios with other team members, and perform
other investigative activities. (Rec. Doc. 28-1, p. 5-6,
The NTSB’s Memorandum in Support). Further, pursuant to Annex 13, 1 the French Government designated accident investigators, reconstructionists, engineers, and scientists as parties to the NTSB’s
1 Under Annex 13 to the Convention on International Civil
Aviation, Aircraft Accident and Incident Investigation, the
States of the aircraft’s operator, designer, and manufacture have
the right to appoint an accredited representative to participate
in the investigation, as well as technical advisors to assist the
accredited representative. (Rec. Doc. 28-1, p. 3, the NTSB’s
Memorandum in Support).

30a
investigation. (Rec. Doc. 48-1, p. 7, Jobe’s Memorandum in Support). However, the NTSB never appointed representatives for the victims of the crash
nor did it allow the victims’ families to participate in
its investigation. Id.
After the NTSB completed its investigation, Jobe
submitted a request for information under 49 C.F.R.
Part 837 seeking 24 different types of documents.
(Rec. Doc. 28-5, p. 17, Jobe’s 837 Release Request). After reviewing this request, the NTSB informed Jobe
that his request lacked an affidavit that needed to
contain: the information sought, its relevance to the
proceeding, and a certification stating that the material was not available from another source. (Rec.
Doc. 28-1, p. 6, The NTSB’s Memorandum in Support). However, despite these deficiencies, the NTSB
decided to convert Jobe’s Part 837 request into a FOIA
request. Id. This decision was made in part by the fact
that the NTSB had coincidently received a separate
FOIA request from a different entity a few days before
Jobe’s Part 837 request. Id. This separate request
asked for “any and all records” relating to the Crash.
Id. Thus, the NTSB applied the same “any and all records” scope to both the unnamed entity’s request and
to Jobe’s request. Id. To complete these two requests,
the NTSB searched through over 13,000 pages but
chose to disclose only around 4,000 of these pages to
Jobe. 2 Id. Of the 8,000 pages withheld by the NTSB,
2 Interestingly, the Court notes that the NTSB produced
over 3,000 documents for the other FOIA request relating to the
unnamed entity. (Rec. Doc. 28-1, p. 6, the NTSB’s Memorandum
in Support). However, the NTSB claims that these documents

31a
2,349 of these pages were withheld pursuant to Exemption 5. Id. at 7.
In an attempt to receive more of the documents
that were withheld from him, Jobe thereafter submitted a second FOIA request in 2016 that specifically
asked for eleven different categories of documents
that only related to the NTSB’s “on-scene” phase of its
investigation. Id. at 8. These eleven categories were
as follows:
1) A copy of the Attendance Roster from the
Organizational Meeting of the parties to the
investigation;
2) A copy of the Outline of the Issues Utilized in the Organization Meeting of the parties to the investigation;
3) A copy of the On-Scene Organizational
Chart, including designation of the on-site
commander during the on-scene phase of the
investigation;
4) A copy of all State of Party Representatives to the NTSB forms signed by any representative, technical advisor, or agent of Airbus Helicopters, S.A.S. (the manufacturer of
the crash helicopter);

were “inadvertently” never sent to Jobe. Id. Because those documents are not related to the NTSB’s “on-scene” investigations,
the Court will not address that discrepancy. Id.

32a
5) A list of all persons given badges or other
authority for access to the crash site;
6) A copy of the field notes for each work
group for each day of the on-site phase of the
investigation;
7) A copy of all field notes approved by the
Investigator-in-Charge (“IIC”) for follow-up
work to remove wreckage from the crash site;
8) A copy of all IIC authorizations to remove
wreckage from Molokai between November 10, 2011 and January 1, 2012 including
but not limited to November 11, 2011; November 12, 2011; November 13, 2011, November
23, 2011; November 25, 2011; and December 22, 2011;
9) A copy of Attendance Rosters for all progress meetings;
10) A copy of all of the IIC’s notes for all progress meetings; and
11) A copy of all of the on-scene phase of the
investigation status reports prepared by the
IIC. 3
While the scope of Jobe’s first request was all encompassing and asked for “any and all records” that related to the accident, Jobe’s second request only
3

port).

(Rec. Doc. 28-1, p. 8, the NTSB’s Memorandum in Sup-

33a
sought documents that related to the “on-scene”
phase of the NTSB’s investigation. (Rec. Doc. 28-3,
p. 16-17, April 26, 2017 Correspondence with Jobe).
Accordingly, the NTSB answered his second request
by informing him that it had previously disclosed to
him all the releasable documents through his first request. 4 Id.
Jobe was again displeased with the NTSB’s response to his request, so the NTSB, in an attempt to
prevent litigation, offered to re-review the 2,349 records that it previously withheld from him under Exemption 5 in his first request. (Rec. Doc. 53-1, p. 3, the
NTSB’s Reply). However, the NTSB also informed
Jobe that it would only produce the records that were
responsive to the eleven categories that Jobe listed in
his second FOIA request (i.e., only the records that
related to the NTSB’s on-scene investigations). (Rec.
Doc. 28-5, p. 38, January 31, 2018 Correspondence
with Jobe) (“In several telephone calls, you and I clarified the scope of your request, and as a result, we
broadened the scope of your request to include any
records related to the on-scene phase of the investigation.”). Ultimately, out of the 2,349 records that the
NTSB re-reviewed, it ultimately only released 159 of
these documents to Jobe. (Rec. Doc. 28-5, p. 8-13,
Mathew McKenzie’s Declaration). The NTSB claimed
that the remaining documents were either properly
exempt from disclosure under Exemption 5 or were
4 The Court notes that the NTSB disclosed to Jobe an additional 333 of 393 documents to Jobe which originated from an
outside source. (Rec. Doc. 28-3, p. 16-17, April 26, 2017 Correspondence with Jobe). However, those documents are not the
subject of this case.

34a
non-responsive to the 11 categories Jobe listed in his
second FOIA request. Id.
After the NTSB completed its re-reviewal process,
Jobe subsequently filed this suit and specifically requested the following categories of documents:
(a) All field notes from the investigation
which contain relevant factual information
developed by the investigators during the onscene phase of the investigation;
(b) All notes from on-scene investigation
progress meetings, required to be attended by
all investigation party coordinators, that address investigative issues that require coordination, changes to the investigative plan,
need for additional investigative support, or
an evaluation of whether urgent safety recommendations are needed; and
(c) All status reports generated by the
NTSB’s Investigator-In-Charge during the
on-scene phase of the investigation. 5
Thus, through his complaint, Jobe again restricted
the scope to only the documents relating from the “onscene” phase of the NTSB’s investigation. This is in
stark contrast to the breadth of documents he originally asked for in his first FOIA request (i.e., ““any
and all records” related to the crash) and the documents he seemingly requested in his Memorandum in
Support of Summary Judgment. (Rec. Doc. 56, p. 8,
5

(Rec. Doc. 1, p. 3, Jobe’s Complaint) (emphasis added).

35a
Jobe’s Response) (“Given the NTSB’s December 29,
2017 agreement relative to [Jobe’s second FOIA request], Plaintiff seeks the NTSB’s release of all of the
2,349 pages of records arising out of [the Crash] and
withheld by the NTSB on a claim of FOIA Exemption 5.”). Accordingly, based on the limited scope of
this case, the NTSB filed a Vaughn index which only
listed the 215 documents that were withheld and were
responsive to the 11 categories listed in Jobe’s 2016
FOIA request. (Rec. Doc. 28, p. 1-4, Index of Withheld
Records).
In this motion for summary judgment, Jobe requests three specific things. First, Jobe seeks the
NTSB to release all 2,349 records relating to the
Crash that it withheld under Exemption 5, instead of
just the 215 items it found responsive to Jobe’s 2016
FOIA request. (Rec. Doc. 56-1, p. 8, Jobe’s Response).
Second, if the Court finds that the Vaughn index
should be limited to only 215 documents, Jobe requests that the NTSB conduct a segregability analysis and release all 215 documents with proper redactions. Id. at 10. Third, Jobe seeks the NTSB to provide
a more detailed Vaughn index that sufficiently describes the applicability of Exemption 5 to each withheld record. Id. at 11.
Conversely, the NTSB asks this Court to dismiss
this case by granting summary judgment in its favor.
The following will discuss the merits of both side’s
positions.

36a
II. STANDARD OF REVIEW
The FOIA requires a federal agency, upon request, to disclose records in its possession, unless the
requested documents are clearly exempt from disclosure by statute. 5 U.S.C. § 552(a)-(b); NLRB v. Sears,
Roebuck & Co., 421 U.S. 132, 136 (1975). The exemptions are exclusive and should be narrowly construed.
Dep’t of the Air Force v. Rose, 425 U.S. 352, 361 (1976);
Vaughn v. Rosen, 484 F.2d 820, 823 (D.C.Cir.1973).
Furthermore, there is a strong presumption in favor
of disclosure. U.S. Dep’t of State v. Ray, 502 U.S. 164,
173 (citing Rose, 425 U.S. at 361). Accordingly, the
government bears the burden of proving that the documents withheld fall within an enumerated exemption. U.S. Dep’t of Justice v. Tax Analysts, 492 U.S.
136, 141 n. 2 (1989); see also 5 U.S.C. § 552(a)(4)(B)
(“the burden is on the agency to sustain its action”).
The agency may satisfy its burden of proof through
the submission of affidavits that identify the documents at issue and explain why they fall under the
claimed exemption. Cooper Cameron Corp. v. U.S.
Dep’t of Labor, Occupational Safety & Health Admin.,
280 F.3d 539, 543 (5th Cir. 2002). These affidavits
must be clear, specific, and reasonably detailed while
describing the withheld information in a factual and
nonconclusory manner. Id. Lastly, “FOIA cases typically are resolved on a motion for summary judgment.” Ortiz v. U.S. Dep’t of Justice, 67 F. Supp. 3d
109, 116 (D.D.C. 2014); see Defs. of Wildlife v. U.S.
Border Patrol, 623 F. Supp. 2d 83, 87 (D.D.C. 2009).

37a
III. DISCUSSION
A. Scope of the Vaughn Index Provided
by the NTSB
Although Jobe demands a Vaughn index of the
2,349 records that the NTSB withheld under Exemption 5, the NTSB submitted an index of only the 215
documents it deemed responsive to Jobe’s 2016 FOIA
request. (Rec. Doc. 28-6). The Court finds this limitation of scope to be appropriate. As the Magistrate
Judge noted when ruling on Jobe’s Motion to Compel
the Vaughn index, “[a]t issue in the instant dispute is
Jobe’s November 1, 2016 request pursuant to the
FOIA to the National Transportation Safety Board
(“NTSB” or “defendant”) for specific documents related to the crash investigation conducted by the
agency.” (Rec. Doc. 25, p. 1, Magistrate’s Decision on
Jobe’s Motion to Compel). Accordingly, this case focuses on Jobe’s second FOIA request which was limited in scope to only “on-scene” phase of the NTSB’s
investigation. Conversely, this suit does not concern
Jobe’s 2014 FOIA request which effectively asked for
“any and all records” related to the Crash. Thus, the
Court declines to expand the scope of the Vaughn index to include the 2,349 originally withheld documents.
B. Overview of Exemption 5 Law
Next, the FOIA requires federal agencies to disclose records upon request unless the records fall
within one or more enumerated exemptions. Dep’t of
Interior v. Klamath Water Users Protective Ass’n, 532
U.S. 1, 7 (2001); see 5 U.S.C. § 552. The exemptions

38a
are narrowly construed so as not to “‘obscure the basic
policy that disclosure, not secrecy, is the dominant objective of the Act.’” Klamath, 532 U.S. at 8 (quoting
Dep’t of Air Force v. Rose, 425 U.S. 352, 361 (1976)).
The relevant exemption here is Exemption 5, which
allows an agency to withhold disclosure if the document meets two requirements: (1) it is an “interagency or intra-agency memorandum” that (2) “would
not be available by law to a party other than an
agency in litigation with the agency.” 5 U.S.C.
§ 552(b)(5). Thus, if a document is not an “agency document,” an agency may not withhold it even if it reflects the agency’s deliberative process. Similarly, an
agency must disclose documents that would otherwise
be protected under Exemption 5 if that agency waives
that right by voluntarily sharing the document with
third parties. Mead Data Central, Inc. v. United
States Dep’t of the Air Force, 566 F.2d 242, 253
(D.C.Cir.1977).
i.

Requirement One - Inter-Agency or
Intra-Agency

First, to receive protection under Exemption 5,
the record in question must be an inter-agency or intra-agency document. This type of protection is normally used to cover typical communications between
agency employees. However, the Fifth Circuit has extended this protection to certain communications between agency employees and outside consultants.
Hoover v. U.S. Dep’t of the Interior, 611 F.2d 1132,
1138 (5th Cir. 1980). As the D.C. Court of Appeals explained in Public Citizen v. Department of Justice:
“records of communications between an agency and

39a
outside consultants qualify as intra-agency for [the]
purposes of Exemption 5 if they have been created for
the purpose of aiding the agency’s deliberative process.” 111 F.3d 168, 170 (D.C. Cir. 1997) (citations and
internal quotation marks omitted); see also Ryan v.
DOJ, 617 F.2d 781, 789–90 (D.C. Cir. 1981) (“When
an agency record is submitted by outside consultants
as part of the deliberative process, and it was solicited
by the agency, we find it entirely reasonable to deem
the resulting document to be an ‘intra-agency’ memorandum.”). Under what has come to be known as the
“consultant corollary,” it is irrelevant whether the author of the document is a regular agency employee or
a temporary consultant. Public Citizen, 111 F.3d at
170.
ii. Requirement Two - Deliberative Process Privilege
The second requirement for receiving protection
under Exemption 5 is that the document must not be
normally “discoverable by a private party in the
course of civil litigation with the agency.” Jordan v.
Department of Justice, 591 F.2d 753, 772
(D.C.Cir.1978). Among the privileges that fall within
this classification is the deliberative process privilege.
Id. This privilege shields from disclosure “all papers
which reflect the agency’s group thinking in the process of working out its policy and determining what
its law shall be.” Arthur Andersen & Co. v. I.R.S., 679
F.2d 254, 257 (D.C.Cir.1982) (citation and internal
quotation marks omitted). To determine whether a
document is covered by this privilege, courts must
look at two factors. First, courts ask whether the

40a
document is “predecisional,” that is, whether the document was prepared in order to assist the decisionmaker in making a decision. Coastal States Gas
Corp. v. Dep’t of Energy, 617 F.2d 854, 866
(D.C.Cir.1980). These types of documents include
things like proposals, draft documents, and other subjective documents that reflect the writer’s opinions rather than an agency policy. Id. “To ascertain whether
the documents at issue are pre-decisional, the court
must first be able to pinpoint an agency decision or
policy to which these documents contributed.” Morley
v. CIA, 508 F.3d 1108, 1127 (D.C. Cir. 2007) (quoting
Paisley v. CIA, 712 F.2d 686, 698 (D.C. Cir.1983)).
The second factor of the deliberative process privilege requires the court to determine if the document
is “deliberative.” That is, a court must decide whether
the document “reflects the give-and-take of the consultative process.” Judicial Watch, Inc. v. Food &
Drug Admin., 449 F.3d 141, 151 (D.C. Cir. 2006)
(quoting Coastal States, 617 F.2d at 866). Further,
the document must be such that its public disclosure
would not “expose an agency’s decisionmaking process in such a way as to discourage candid discussion
within the agency and thereby undermine the
agency’s ability to perform its functions.” Dudman
Commc’ns Corp. v. Dep’t of the Air Force, 815 F.2d
1565, 1568 (D.C. Cir. 1987). The burden is on the
agency to “establish[] what deliberative process is involved, and the role played by the documents in issue
in the course of that process.” Coastal States, 617 F.2d
at 868. Conclusory assertions that merely parrot the
language of the exemption do not suffice. Senate of the
Commonwealth of Puerto Rico on Behalf of Judiciary

41a
Comm. v. U.S. Dep’t of Justice, 823 F.2d 574, 585
(D.C. Cir. 1987) (citing Mead Data Cent., Inc. v. Dep’t
of the Air Force, 566 F.2d 242, 258 (D.C. Cir. 1977)
(noting that the government must show “by specific
and detailed proof that disclosure would defeat, rather than further, the purposes of the FOIA.”)).
C. Applying Exemption 5 to this Case
i.

Documents Prepared by Representatives and the Fact Witness

In this case, the Helicopter’s manufacturers, Eurocopter and Turbomeca, prepared Documents 175179 and Documents 180-206, but the NTSB claimed
that Exemption 5 applied to these documents by saying, “[t]he advice provided to the NTSB by [Eurocopter and Turbomeca] are intra-agency communications
covered by the consultant corollary to Exemption 5.”
(Rec. Doc. 28-1, p. 23, NTSB’s Memorandum in Support). More specifically, “[t]he NTSB sought the outside advice, the advice was not adverse to government
interests, and in providing their expertise, the consultants effectively functioned as agency employees.”
Id. Further, the NTSB attempted to refute the notion
that Eurocopter and Turbomeca were “disinterested”
parties by saying, “[f]irst, NTSB investigations are
fact-finding proceedings that do not assign liability or
adjudicate rights, with no adverse parties.” Id. at 24.
“Second, legal professionals, claimant or insurer representatives, and to the extent practicable, individuals directly involved in an accident are not permitted
to be party representatives.” Id. “Third, party participation is subject to the [Investigator in Charge’s]

42a
control and direction, and to the terms of the ‘Statement of Party Representative to NTSB Investigation’
to ensure that parties are serving the needs of the
NTSB investigation, and not any litigation purpose.”
Id.
Here, the Court finds the NTSB’s arguments unpersuasive. As participants in the NTSB’s investigation, Eurocopter and Turbomeca demonstrate the
epitome of “self-interested” individuals. Although
these entities were there to help the NTSB’s investigation, they also were undoubtedly there to collect information to prepare for inevitable future litigation.
Further, the NTSB relies on Electronic Privacy Information Center (EPIC) v. DHS, 892 F. Supp. 2d 28, 4546 (D.D.C. 2012) which appears to misread Klamath
as requiring actual adversity between the consultant
and the agency before the communications lose protection. However, Klamath does not require adversity, and the Court finds EPIC’s reasoning unpersuasive. Klamath, 532 U.S. at 12 (“The Tribes, on the contrary, necessarily communicate with the Bureau with
their own, albeit entirely legitimate interests in mind.
While this fact alone distinguishes tribal communications from the consultants’ examples … the distinction is even sharper, in that the Tribes are self-advocates at the expense of others seeking benefits inadequate to satisfy everyone.”) (emphasis added).
Instead, Klamath requires the agency’s consultant to be disinterested and not “represent[ing] an interest of its own, or the interest of any other client,
when it advises the agency that hires it.” Klamath,
532 U.S. at 12, n.4. An agency’s consultant has an

43a
obligation to be obedient “to truth and its sense of
what good judgment calls for, and in those respects
the consultant functions just as an employee would be
expected to do.” Id. Thus, as the United Supreme
Court has noted, “the intra-agency condition excludes, at the least, communications to or from an interested party seeking a Government benefit at the
expense of other applicants.” Id.
Both Eurocopter and Turbomeca received a significant benefit here. As Jobe stated in his Memorandum
in Support, “throughout the NTSB’s entire investigative process, the manufacturer and operator defendants in civil litigation were welcome to the entire government investigation file and were given editorial license to the NTSB’s draft and official ‘factual’ reports
and draft final reports of the agency’s determination
of the probable cause(s) of the crash.” (Rec. Doc. 48-1,
p. 7, Jobe’s Memorandum in Support). “The accident
victims and their families were not.” Id. Thus, the
Court finds that Eurocopter and Turbomeca were not
“consultants” under the “consultant corollary.” Accordingly, Documents 175-179 from Eurocopter and
Documents 180-206 from Turbomeca are not “agency
documents” and must be disclosed to Jobe. (Rec.
Doc. 28-6, p. 3, The NTSB’s Index of Withheld Records).
Under the same reasoning, the NTSB must also
disclose the email sent by the fact witness pilot to the
NTSB. Id. This email was not prepared by the agency
nor did the NTSB hire this fact witness to serve as an
agency consultant. Therefore, the Court also finds

44a
that the NTSB must release Documents 165-166 from
the fact witness pilot to Jobe.
ii. Documents Prepared by NTSB and
Sent Only to NTSB Staff
Next, after conducting an in camera inspection of
Documents 62-87, 88-92, 93, 94-104, 105-119, 120122, 167-174, and 207-215, the Court confirmed that
these documents were all internally produced by
NTSB personnel and were only shared with NTSB
staff. Accordingly, these documents satisfy the Deliberative Process Privilege’s two criteria. Coastal States
Gas Corp., 617 F.2d at 866. First, these documents
are “predecisional” because they were drafted before
the NTSB made its final conclusions on the crash.
(Rec. Doc. 28-6, The NTSB’s Index of Withheld Records). Second, these documents are “deliberative” because the disclosure of these documents would unjustly expose the NTSB’s decision-making process. Id.
Thus, the Court finds that the NTSB properly withheld these documents from disclosure under Exemption 5.
iii. Documents Prepared by NTSB and
Sent to Outside Representatives
Lastly, Documents 1-61, 123-124, and 125-156
were prepared by NTSB personnel but then were distributed to other NTSB personnel and outside representatives, such as the plane’s manufacturers and the
plane’s leasing company. (Rec. Doc. 28-6, The NTSB’s
Index of Withheld Records). Normally, these documents would be exempt for disclosure because they
were both “predecisional” and “deliberative.” Coastal

45a
States Gas Corp., 617 F.2d at 866. However, for the
purposes of the inter-agency requirement under Exemption 5, the Supreme Court has noted that the
term “agency” means “each authority of the Government of the United States, § 551(1), and includes any
executive department, military department, Government corporation, Government controlled corporation, or other establishment in the executive branch
of the Government … or any independent regulatory
agency[.]” Klamath Water Users, 532 U.S. at 9 (internal quotations omitted). In general, this definition establishes that communications between agencies and
outside parties are not protected under the deliberative process privilege. Ctr. for Int’l Envtl. Law v. Office of U.S. Trade Representative, 237 F. Supp. 2d 17,
25 (D.D.C. 2002). As seen through the analysis above,
entities like the plane’s manufacturers and the
plane’s leasing company are considered outside parties because they do not constitute “disinterested”
consultants under the “consultant corollary.” Thus, by
sharing its agency documents with non-agency entities (i.e., the plane’s manufacturers and the plane’s
leasing company), the NTSB waived the deliberative
process privilege under Exemption 5. Accordingly, the
Court concludes that the NTSB must disclose Documents 1-61, 123-124, and 125-156 to Jobe.
D. Segregability Analysis
The FOIA requires that “[a]ny reasonably segregable portion of a record shall be provided to any person requesting such record after [the] deletion of the
portions which are exempt.” 5 U.S.C. § 552(b). Therefore, once an agency identifies a document that it

46a
believes qualifies for a FOIA exemption, “it must undertake a segregability analysis, in which it separates
the exempt from the non-exempt portions of the document, and produce[] the relevant non-exempt information.” Edmonds Inst. v. U.S. Dep’t of the Interior,
383 F. Supp. 2d 105, 108 (D.D.C. 2005) (citing
Vaughn, 484 F.2d at 825). To prevail in a motion for
summary judgment, the agency must demonstrate
that it has satisfied its segregability analysis obligation, which it may do through its Vaughn index in conjunction with an agency declaration. See e.g., Peter S.
Herrick’s Customs & Int’l Trade Newsletter v. U.S.
Customs & Border Protection, No. 04-377, 2005 WL
3274073, at *3 (D.D.C. Sept. 22, 2005). Under Fifth
Circuit law, “[i]t is error for a district court to simply
approve the withholding of an entire document without entering a finding on segregability, or the lack
thereof.” Batton v. Evers, 598 F.3d 169, 178 (5th Cir.
2010) (citing Schiller v. NLRB, 964 F.2d 1205, 1210
(D.C. Cir. 1992)).
Here, the Court finds that the Vaughn index submitted by the NTSB, combined with the NTSB’s declaration that no further segregation is possible (Rec.
Doc. 28-3, p. 6, Declaration by Melba Moye), demonstrates that withheld Documents 62-122, 157-164,
and 207-215 are not segregable. See Peter S. Herrick’s
Customs & Int’l Trade Newsletter v. U.S. Customs &
Border Prot., No. CIV.A. 04-00377 JDB, 2005 WL
3274073, at *3 (D.D.C. Sept. 22, 2005) (“[T]he combination of a comprehensive, reasonably-detailed
Vaughn index and an affidavit confirming that a lineby-line review of each document determined that no
redacted information could be disclosed will satisfy

47a
the agency’s obligation.”). Further, this determination
was bolstered by the Court’s in camera review of the
corresponding documents. Thus, Jobe’s claim relating
to segregability of the withheld documents has no
merit.
D. Adequacy of the Vaughn Index Descriptions
Jobe lastly requested this Court to order “the
NTSB to provide a full and complete Vaughn index,
sufficient for this Court to determine the applicability
of Exemption 5 to each of the records withheld.” However, the Court now finds this argument moot after it
completed an in camera inspection of all 215 documents on the Vaughn index. (Rec. Doc. 28-6).
Accordingly;
IT IS ORDERED that the Motion for Summary Judgment (Rec. Doc. 28) filed by the NTSB
and the Cross Motion for Summary Judgment
(Rec. Doc. 48) filed by Jobe are GRANTED IN
PART AND DENIED IN PART as follows: the
NTSB must release to Jobe Documents 1-61, 123-156,
and 165-206 on the Vaughn index submitted by the
NTSB. (Rec. Doc. 28-6). Jobe’s request for the NTSB
to produce Documents 62-122, 157-164, and 207-215
is denied.
November 18, 2019

/s/ Jay C. Zainey
JUDGE JAY C. ZAINEY
UNITED STATES
DISTRICT JUDGE

48a
APPENDIX C
INDEX OF WITHHELD RECORDS
Tony B. Jobe v. NTSB, Case No. 2:18-cv-10547JCZ-DEK (E.D. La.)
NTSB accident ID WPR12MA034
FOIA request 2017-00066
Accident date: November 10, 2011
Page(s)

Description

001-061

Emails, dated December 14,
2011 and November 29, 2012,
from Dennis Hogenson, NTSB
Investigator in Charge (IIC),
to NTSB employees transmitting for review a draft Operations/Witness Group Chairman’s Factual Report and a
draft Airworthiness Field
Notes report. Group Field
Notes are circulated among
NTSB employees and party
representatives for input, and
signatures are requested to
acknowledge consensus about
the preliminary information
gathered. Field Notes represent a preliminary
consensus about the circumstances surrounding an

Exemption
5
Deliberative
process
privilege

49a
Page(s)

062-087

088-092

093

Description
accident. They help determine
what additional steps to take
and serve as the starting
point for developing factual
reports that are released in
the public docket. Thus,
though mostly factual in nature, they are an important
part of the NTSB’s deliberative process.
A draft Operations/Witness
Group Chairman’s Factual
Report, dated December 19,
2012.
Email, dated January 4, 2013,
from Dennis Hogenson, NTSB
IIC, to NTSB investigators regarding the use of wreckage
diagram in factual reports, attaching the diagram. Final attachment produced, but a
draft version of the wreckage
diagram withheld.
Email, dated November 10,
2011, from Joshua Cawthra,
NTSB Aviation Accident Investigator, to Dennis Hogenson, NTSB IIC, transmitting draft first paragraph of
accident summary.

Exemption

5
Deliberative
process
privilege
5
Deliberative
process
privilege

5
Deliberative
process
privilege

50a
Page(s)
094-104

105-119

120-122

123-124

Description

Exemption
Emails, dated November 125
19, 2011, July 19, 2012, and
DeliberAugust 24-27, 2012, within
ative
NTSB regarding the status of process
accident investigation and ini- privitial facts about the accident,
lege
citing a task list Excel spreadsheet (no attachment), and
discussing the next steps in
the investigation.
Emails, dated January 23-26, 5
2012, February 1-2, 2012,
DeliberMarch 2, and August 28 (no
ative
years given) within NTSB re- process
garding a work planning
privimeeting for the accident, inlege
cluding the meeting agenda.
Emails, dated November 19,
5
2011, within NTSB providing Deliberan update on the accident inative
vestigation, including comprocess
ments on factual information
privifound to date.
lege
Emails, dated November 29,
5
2011, from NTSB to FAA and Deliberparty representative, Blue
ative
Hawaiian Helicopters, seekprocess
ing comments on draft field
priviinterview notes, and providlege
ing FAA’s comments on the
notes.

51a
Page(s)
125-156

Description

Exemption
Emails, dated November 14
5
and 29, 2011, among NTSB,
Deliberaccredited representative,
ative
France’s Bureau of Enquiry
process
and Analysis for Civil Aviaprivition Safety (BEA-France), and lege
the Federal Aviation Administration (FAA) transmitting
for review an Airworthiness
Field Notes report and an Operations/Witness Group
Chairman’s Factual Report.
Group Field Notes are circulated among party representatives for input, and signatures
are requested to acknowledge
consensus about the preliminary information gathered.
Field Notes represent a preliminary consensus about the
circumstances surrounding an
accident. They help determine
what additional steps to take,
and serve as the starting
point for developing factual
reports that are released in
the public docket. Thus,
though mostly factual in nature, they are an important
part of the NTSB’s deliberative process.

52a
Page(s)

Description

157-166

Emails, dated November 21,
2011, December 15, 2011, and
January 12, 2012, within
NTSB and from a pilot flying
in the area of the accident to
the NTSB transmitting pilot
interview notes. The interview notes were used in developing the Operations/Witness
Group Chairman’s Factual
Report.
Undated draft witness interview notes. The interview
notes were used in developing
the Operations/Witness Group
Chairman’s Factual Report.

167-174

175-179

Undated draft Field Notes
from technical advisor, Eurocopter, regarding the accident and accident aircraft.

180-206

Undated On-Site Examination Report from technical advisor, Turbomeca, summarizing examination of accident
site and the aircraft.

207-215

Draft NTSB Meteorology
Group Field Notes report,
dated November 19, 2011,

Exemption
5
Deliberative
process
privilege

5
Deliberative
process
privilege
5
Deliberative
process
privilege
5
Deliberative
process
privilege
5
Deliberative

53a
Page(s)

Description
drafted by Michael Richards,
NTSB Meteorologist.

Exemption
process
privilege

54a
APPENDIX D
5 U.S.C. § 552
Public information; agency rules, opinions, orders,
records, and proceedings
***
(b) This section does not apply to matters that are-(1)(A) specifically authorized under criteria established by an Executive order to be kept secret
in the interest of national defense or foreign policy
and (B) are in fact properly classified pursuant to
such Executive order;
(2) related solely to the internal personnel rules
and practices of an agency;
(3) specifically exempted from disclosure by statute (other than section 552b of this title), if that
statute-(A)(i) requires that the matters be withheld
from the public in such a manner as to leave
no discretion on the issue; or
(ii) establishes particular criteria for withholding or refers to particular types of matters to be withheld; and
(B) if enacted after the date of enactment of
the OPEN FOIA Act of 2009, specifically cites
to this paragraph.

55a
(4) trade secrets and commercial or financial information obtained from a person and privileged
or confidential;
(5) inter-agency or intra-agency memorandums
or letters that would not be available by law to a
party other than an agency in litigation with the
agency, provided that the deliberative process
privilege shall not apply to records created
25 years or more before the date on which the records were requested;
(6) personnel and medical files and similar files
the disclosure of which would constitute a clearly
unwarranted invasion of personal privacy;
(7) records or information compiled for law enforcement purposes, but only to the extent that
the production of such law enforcement records or
information (A) could reasonably be expected to
interfere
with
enforcement
proceedings,
(B) would deprive a person of a right to a fair trial
or an impartial adjudication, (C) could reasonably
be expected to constitute an unwarranted invasion of personal privacy, (D) could reasonably be
expected to disclose the identity of a confidential
source, including a State, local, or foreign agency
or authority or any private institution which furnished information on a confidential basis, and, in
the case of a record or information compiled by
criminal law enforcement authority in the course
of a criminal investigation or by an agency conducting a lawful national security intelligence investigation, information furnished by a

56a
confidential source, (E) would disclose techniques
and procedures for law enforcement investigations or prosecutions, or would disclose guidelines
for law enforcement investigations or prosecutions if such disclosure could reasonably be expected to risk circumvention of the law, or
(F) could reasonably be expected to endanger the
life or physical safety of any individual;
(8) contained in or related to examination, operating, or condition reports prepared by, on behalf
of, or for the use of an agency responsible for the
regulation or supervision of financial institutions;
or
(9) geological and geophysical information and
data, including maps, concerning wells.
Any reasonably segregable portion of a record shall be
provided to any person requesting such record after
deletion of the portions which are exempt under this
subsection. The amount of information deleted, and
the exemption under which the deletion is made, shall
be indicated on the released portion of the record, unless including that indication would harm an interest
protected by the exemption in this subsection under
which the deletion is made. If technically feasible, the
amount of the information deleted, and the exemption
under which the deletion is made, shall be indicated
at the place in the record where such deletion is made.
***

